No.

In the Supreme Court of the United States
CALIFORNIA TRUCKING ASSOCIATION, INC.; RAVINDER
SINGH; AND THOMAS ODOM,
Petitioners,
v.
ROBERT BONTA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF THE STATE OF CALIFORNIA,
ET AL.,
Respondent[s].
CERTIFICATE OF SERVICE
I, Charles A. Rothfeld, counsel for Petitioners California Trucking
Association, Inc., Ravinder Singh, and Thomas Odom, hereby certify that on this
9th day of August, 2021, I caused three copies of the Petition for a Writ of Certiorari
of Petitioners to be served by overnight delivery on the following counsel:
Jose Zelidon-Zepeda
Office of the California Attorney General
455 Golden Gate Avenue
San Francisco, CA 94102
Tel.: (415) 510-3879
Jose.Zelidonzepeda@doj.ca.gov
Attorney for Respondents Robert Bonta et
al.
Stacey M. Leyton
Andrew Kushner
Altshuler Berzon, LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421-7151
Attorneys for Respondent International
Brotherhood of Teamsters

I further certify that all parties required to be served have been served.
/s/ Charles A Rothfeld_________
Charles A. Rothfeld
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
crothfeld@mayerbrown.com

